<html>
<title> - THE USE OF TIFIA AND INNOVATIVE FINANCING IN IMPROVING INFRASTRUCTURE TO ENHANCE SAFETY, MOBILITY, AND ECONOMIC OPPORTUNITY</title>
<body><pre>[Senate Hearing 115-74]
[From the U.S. Government Publishing Office]


                                                         S. Hrg. 115-74

 THE USE OF TIFIA AND INNOVATIVE FINANCING IN IMPROVING INFRASTRUCTURE 
         TO ENHANCE SAFETY, MOBILITY, AND ECONOMIC OPPORTUNITY

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 12, 2017

                               __________

  Printed for the use of the Committee on Environment and Public Works
  
  
  
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]   
  
  
         Available via the World Wide Web: http://www.fdsys.gov
         
         
                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
26-726 PDF                  WASHINGTON : 2017                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="bcdbccd3fcdfc9cfc8d4d9d0cc92dfd3d192">[email&#160;protected]</a>      
         
         
         
         
         
               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                     ONE HUNDRED FIFTEENTH CONGRESS
                             FIRST SESSION

                    JOHN BARRASSO, Wyoming, Chairman
JAMES M. INHOFE, Oklahoma            THOMAS R. CARPER, Delaware
SHELLEY MOORE CAPITO, West Virginia  BENJAMIN L. CARDIN, Maryland
JOHN BOOZMAN, Arkansas               BERNARD SANDERS, Vermont
ROGER WICKER, Mississippi            SHELDON WHITEHOUSE, Rhode Island
DEB FISCHER, Nebraska                JEFF MERKLEY, Oregon
JERRY MORAN, Kansas                  KIRSTEN GILLIBRAND, New York
MIKE ROUNDS, South Dakota            CORY A. BOOKER, New Jersey
JONI ERNST, Iowa                     EDWARD J. MARKEY, Massachusetts
DAN SULLIVAN, Alaska                 TAMMY DUCKWORTH, Illinois
RICHARD SHELBY, Alabama              KAMALA HARRIS, California

              Richard M. Russell, Majority Staff Director
               Gabrielle Batkin, Minority Staff Director
                           
                           
                           
                           C O N T E N T S

                              ----------                              
                                                                   Page

                             JULY 12, 2017
                           OPENING STATEMENTS

Barrasso, Hon. John, U.S. Senator from the State of Wyoming......     1
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..     2

                               WITNESSES

Mayer, Anne, Executive Director, Riverside County Transportation 
  Commission, Riverside, California..............................     4
    Prepared statement...........................................     7
    Responses to additional questions from Senator Carper........    19
Aument, Jennifer, Group General Manager, Transurban North 
  America, Tysons, Virginia......................................    21
    Prepared statement...........................................    24
    Responses to additional questions from Senator Carper........    39
Coes, Christopher, Vice President for Real Estate Policy and 
  External Affairs, Smart Growth America, and Director, LOCUS: 
  Responsible Real Estate Developers and Investors, Washington, 
  DC.............................................................    42
    Prepared statement...........................................    44
    Responses to additional questions from Senator Carper........    50

                          ADDITIONAL MATERIAL

Letter to Senators Enzi and Sanders from Senators Barrasso and 
  Carper, March 10, 2017.........................................    71
Statement of the American Association of State Highway and 
  Transportation Officials, July 12, 2017........................    80

 
 THE USE OF TIFIA AND INNOVATIVE FINANCING IN IMPROVING INFRASTRUCTURE 
         TO ENHANCE SAFETY, MOBILITY, AND ECONOMIC OPPORTUNITY

                              ----------                              


                        WEDNESDAY, JULY 12, 2017

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:10 a.m. in 
room 406, Dirksen Senate Office Building, Hon. John Barrasso 
(Chairman of the Committee) presiding.
    Present: Senators Barrasso, Carper, Boozman, Wicker, Ernst, 
Cardin, Whitehouse, Gillibrand, Duckworth, and Harris.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
             U.S. SENATOR FROM THE STATE OF WYOMING

    Senator Barrasso. Good morning. I call this hearing to 
order.
    This is the sixth hearing our Committee has held this year 
on improving our nation's highways, bridges, and water 
projects. As these hearings have shown, infrastructure is 
critical to our nation's prosperity, and the needs and 
solutions for rural and urban areas are frequently different.
    Solutions to address and pay for fixing our nation's 
crumbling roads and bridges are not one size fits all. Private 
financing--especially for transportation projects--tends to be 
much less effective in sparsely populated parts of our country. 
It can play an important role in and around large population 
centers.
    Big ticket projects that cost billions of dollars--or even 
projects that cost hundreds of millions of dollars--are rare in 
rural and small States like Wyoming. Large projects are 
frequently critical for urban areas. Many of these projects are 
made possible through financing, combining Federal, State, and 
local assets.
    Today we are here to receive testimony from experts about 
the range of financing options that can be used to rebuild our 
transportation infrastructure. Leveraging public funding to 
maximize private investment is a tool that the Administration 
strongly supports. A primary existing mechanism is the loans 
and loan guarantees provided by the Transportation 
Infrastructure Finance and Innovation Act, commonly referred to 
as TIFIA. TIFIA loans have been used successfully for the 
construction of critical transportation infrastructure.
    Today we will hear about a TIFIA success story in 
California from Anne Mayer, the Executive Director of the 
Riverside County Transportation Commission; Jennifer Aument, of 
Transurban, will testify about other innovative transportation 
funding options and ways we can improve and broaden TIFIA so 
more of our communities can benefit; and Mr. Christopher Coes 
will share Smart Growth America's ideas about how to improve 
the program for smaller and transit-oriented projects.
    I believe that, working together in a bipartisan way, this 
Committee can find transportation solutions that work for both 
rural and urban America.
    I will now turn to Ranking Member Carper for his comments.

          OPENING STATEMENT OF HON. THOMAS R. CARPER, 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. Thank you so much, Mr. Chairman.
    To our witnesses, welcome. Very nice to see you. We are 
glad you are here.
    Mr. Chairman, I am grateful to you for calling the hearing 
on TIFIA. It is an important source of low cost financing, as 
we know, for thousands of critical projects across our country, 
and that includes Delaware.
    I am going to take a minute to describe why it is important 
to us.
    Senator Barrasso and I sometimes talk about the 80/20 rule, 
which we first learned from Mike Enzi, who once described his 
ability to work very well with Ted Kennedy, a very liberal 
Democrat, and Mike Enzi a very conservative Republican, who 
were the co-leads on the Health, Education, Labor, and Pensions 
Committee. They got a lot done.
    I once asked Mike Enzi, how are you and Ted Kennedy able to 
get so much done, and he said, we believe in the 80/20 rule. I 
said, what is that? He said, the 80/20 rule, Ted and I agree on 
80 percent of the stuff; we disagree on 20 percent of the 
stuff. So what we do is we focus on the 80 percent where we 
agree.
    On this Committee's broad agreement with the leader, this 
Chairman, and before him Senator Inhofe and Barbara Boxer had 
broad agreement on a lot of the transportation and 
infrastructure items. And there is, I think, special agreement 
on TIFIA. One of the things we like about TIFIA I will mention 
in a minute is how much other money--private sector money, 
public money, State and local money--that we can leverage 
through TIFIA.
    But our State has just closed its first TIFIA loan. We did 
it last year for a project on U.S. 301. And if you are leaving 
Washington, DC, you get on Route 50 heading east, trying to get 
to those great Delaware beaches, and pretty good Maryland 
beaches too. But you get on Route 50 heading east, and you get 
to a point you can go south and head to the beaches or head 
north on the 301.
    U.S. 301 is a four-lane highway. It is a beautiful stretch 
of road, one of the loveliest stretches of road on the east 
coast. A four-lane road, and it goes all the way through 
Maryland to the Delaware line, where it becomes a two-lane 
road, a two-lane road, and on a busy day it gets to be a very 
crowded two-lane road.
    But we have a project underway on U.S. 301 that will make 
it easier for drivers to travel through our State and get up to 
I-95, if they want to, or find someplace in Delaware to go to. 
It will also make our community safer by taking large trucks 
off our smaller local streets, and our State will repay a $211 
million loan with toll revenues and other State transportation 
funds.
    The U.S. 301 project has a total construction cost of over 
$400 million. That is a lot of money for a little State. That 
is more than three times as much funding as Delaware receives 
annually, in fact, from the Federal Highway formula programs.
    Without this loan, the U.S. 301 project could never have 
been completed. And again, it is not just for Delaware; it is 
actually for a lot of folks that are moving a lot of commerce 
that is moving through that part of our country.
    The TIFIA loan helped to leverage, as I said, other bonds 
and State funding for the project and provided a lower interest 
rate and beneficial repayment terms that help the State take on 
such a big project.
    Across the country, the story is very much the same. TIFIA 
is a critical component of a funding package for large 
projects. It helps to leverage non-Federal funding, including 
State, local, and private dollars.
    It is important to recognize, though, TIFIA is not the 
solution for all types of projects. There are certain types of 
projects that have not received loans through TIFIA. TIFIA has 
provided loans for just 64 projects total since it was 
authorized in 1998. Think about that. How many years is that, 
19 years? Nineteen years. Do the math. That is about four 
projects a year. But the vast majority of these projects have 
ranged in total cost from about $200 million to $3 billion, so 
there are some big ones.
    The President has called on Congress to expand the TIFIA 
program in order to encourage more non-Federal investments, 
and--stop the presses--I think he is right. As we consider that 
call, we should acknowledge that TIFIA is a useful tool, not 
replacement for direct grants to States and cities.
    We should also look for opportunities to make TIFIA 
available for a wider range of projects, and that includes 
smaller projects as well as multi-billion dollar investments 
that have the potential to transform regional economies like 
the project we are doing in Delaware.
    The FAST Act expanded eligibility for small and rural 
projects, and for projects to build transit oriented 
developments. However, to date, none of these project types 
have received TIFIA loans.
    We look forward to working with the Chair, colleagues on 
the Committee, including Senator Inhofe, to expand and broaden 
this program, and I look forward to hearing the testimony and 
suggestions for doing so from our panel today.
    Welcome, everybody. Bienvenido, as we say in Delaware.
    Senator Barrasso. Thank you, Senator Carper.
    Before we hear from our witnesses, I would like to invite 
Senator Harris to introduce one of our witnesses from her home 
State of California.
    Senator Harris. Thank you, Chairman Barrasso and Ranking 
Member Carper. I appreciate and agree wholeheartedly that there 
are so many issues that are presented to this Committee and to 
all of us as Senators, the vast majority, in fact, that are not 
even bipartisan or non-partisan, and it is critical that we 
approach them that way.
    So thank you, Mr. Chairman. I am honored to introduce Anne 
Mayer from California.
    It is good to see you again. I welcome you warmly to the 
U.S. Senate.
    She is the Executive Director of the Riverside County 
Transportation Commission, also known as RCTC. Riverside County 
is the tenth most populous county in the nation and home to 
over 2.3 million people. It is also located approximately 60 
miles east from the ports of Los Angeles and the Port of Long 
Beach, making it a major transportation corridor for the goods 
in and out of the United States.
    Residents and visitors to Riverside are used to sharing 
their highways with a high volume of trucks, but as the 
population continues to grow, so does congestion. This is part 
of a State that suffers from poor air quality, mostly due to 
the number of vehicles moving through it, so that growing 
traffic also threatens public health.
    As head of RCTC, Ms. Mayer oversees the safe and reliable 
mobilization of the people and all the international and 
domestic products that pass through the region. She has over 34 
years of service as a transportation official and civil 
engineer. Previous to her current role, she served as the 
District Director of the California Department of 
Transportation's geographically largest district, which is 
District 8 in San Bernardino and Riverside Counties. And with 
her extensive knowledge and experience, Anne has led RCTC to 
look for different solutions to meet the challenging 
transportation demands in Riverside County.
    During her tenure, she steered RCTC into successfully 
receiving one of the United States Department of 
Transportation's earliest TIFIA loans to expand State Route 91, 
a project that cost a total of $1.4 billion. She has also 
helped expand Southern California's commuter rail line, 
MetroLink, to expand service from Los Angeles into Southwest 
Riverside County.
    Riverside County is a model of how a transportation agency 
can leverage Federal resources and bring jobs and 
transportation to a community that needs both. Therefore, it is 
my distinct pleasure to hear from Anne about how we can 
efficiently and effectively accelerate the development of 
infrastructure improvement projects for the benefit not only of 
California, but the entire nation.
    Thank you, Mr. Chairman.
    Senator Barrasso. Well, thank you very much.
    I want to remind the witnesses that your full written 
testimony will be made part of the official hearing record, so 
please try to keep your statements to 5 minutes so that we may 
have time to questions. I look forward to hearing the testimony 
of each of you, beginning with Ms. Mayer.

 STATEMENT OF ANNE MAYER, EXECUTIVE DIRECTOR, RIVERSIDE COUNTY 
        TRANSPORTATION COMMISSION, RIVERSIDE, CALIFORNIA

    Ms. Mayer. Good morning, Chairman Barrasso, Ranking Member 
Carper, and members of the Committee.
    Senator Harris, thank you for the kind introduction.
    Thank you all for the opportunity to testify about our 
experience with TIFIA and recommendations for the future of the 
program.
    I would like to start by thanking this Committee for your 
work on the FAST Act. The FAST Act made TIFIA a more user 
friendly and effective program for regional transportation 
agencies like ours.
    TIFIA is an important program that provides a flexible and 
low cost source of financing that allows State and regional 
governments to put less money into debt repayments and more 
money into projects.
    Let me take a minute to describe how TIFIA has helped our 
county. As was mentioned, Riverside County is both 
geographically and economically diverse, spanning over 7,000 
square miles, with both urban and rural areas. We have the 
population of New Mexico in the area the size of New Jersey.
    Riverside County is what we call a self-help county. Our 
voters have approved sales tax measures for transportation on 
two occasions. The combination of local and Federal dollars can 
lead to transformative projects that change thousands of lives 
for the better.
    The $1.4 billion 91 corridor improvement project has been 
RCTC's largest undertaking to date, with the TIFIA program 
providing a loan of $421 million. The TIFIA loan was absolutely 
essential to the financing of the project. Without it, we would 
have faced costly delays or increased costs from issuing 
municipal debt. The project opened to traffic in March 2017, 
and I am very pleased to report that the results have been 
overwhelmingly positive.
    Now we are seeking to do even more with the TIFIA program. 
We are currently in the process of applying for another TIFIA 
loan of $152 million for the Interstate 15 Express Lanes 
project. This $471 million project will add two tolled express 
lanes in northwest Riverside County.
    We have learned many lessons from our extensive work with 
the TIFIA program. With the leadership of this Committee, 
Congress has made the TIFIA program more stable by creating a 
predictable application and approval process.
    In the years between financing the 91 and the I-15 
projects, there has been a decreased appetite for financial 
risk out of the TIFIA office. We welcome rigorous Federal 
review to ensure the integrity of the TIFIA program, but would 
ask that the review not be overly onerous or costly for project 
sponsors.
    Because of uncertainty created with the change in 
Administrations, we were concerned about delays in approving 
the I-15 project. We had to pencil out what would happen if we 
had to abandon the TIFIA program. We estimated that financing 
the I-15 project without TIFIA, and using more traditional 
bonds, would cost RCTC an additional $25 million. Thankfully, 
the Council on Credit was able to convene last month and 
approve our TIFIA loan, which now awaits Secretary Chao's 
decision.
    I commend every employee who works on this program for the 
integrity with which they administer it. We have had 
challenges, but we have addressed them head on and together as 
a team.
    Given our experiences with the TIFIA program, I would like 
to highlight a few of our recommendations.
    Maintain mode neutrality; continue the rolling application 
process; maintain a high bar for financial feasibility for 
TIFIA projects, but not so high that project sponsors cannot 
afford the time or the cost to apply; continue the Build 
America Bureau and Federal Highway Administration efforts to 
address permitting issues with other regulatory agencies; and 
encourage the integration of TIFIA requirements into other 
approval processes.
    In conclusion, TIFIA must continue as an essential 
financing source for revenue backed transportation projects, 
and must remain insulated from politics and stay focused on 
objective measures such as credit worthiness and deliverability 
of projects.
    As Congress and the Administration look to pursue an 
infrastructure initiative and prepare for the reauthorization 
of the FAST Act in 2020, please look to RCTC as a resource. We 
stand ready to assist you in your efforts.
    Thank you again for allowing me to testify today, and I 
look forward to answering your questions.
    [The prepared statement of Ms. Mayer follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Barrasso. Thank you, Ms. Mayer.
    Ms. Aument.

STATEMENT OF JENNIFER AUMENT, GROUP GENERAL MANAGER, TRANSURBAN 
                NORTH AMERICA, TYSONS, VIRGINIA

    Ms. Aument. Good morning. Chairman Barrasso, Ranking Member 
Carper, and members of the Committee, thank you for your 
leadership on transportation and for the opportunity to speak 
to you today on the benefits available through TIFIA and other 
efforts to leverage private sector financing and innovation to 
deliver transportation improvements.
    My name is Jennifer Aument, and I am the Group General 
Manager-North America for Transurban.
    Transurban is the largest infrastructure company in 
Australia and among the largest toll road builders and 
operators in the world. We manage and develop urban toll road 
networks by partnering with governments to deliver innovative 
transportation solutions. Transurban has delivered $25 billion 
to upgrade capacity, ease road congestion, and provide travel 
time savings in the cities in which we operate.
    There is much discussion in Washington right now and among 
members of this Committee about the potential to leverage 
private capital to help available funds go further. I am 
pleased to be here today to provide concrete examples of how 
this model is working to deliver transformational 
transportation projects that unlock congested cities, provide 
travelers with more options, create thousands of jobs, and 
inject billions into the economy.
    Here in the United States, like California, Virginia has 
established itself as a key leader in embracing innovative 
transportation solutions. We are fortunate to have had the 
opportunity to work with the Commonwealth to deliver a $3 
billion Express Lanes network on the Capital Beltway and I-95 
just across the river in Virginia. It is among the best 
examples in the country of how States can successfully leverage 
private capital and partnership to meet critical transportation 
needs.
    The 495 and 95 Express Lanes projects are 45 miles of 
dynamically priced high occupancy toll lanes. The Express 
Lanes, which run parallel to the existing regular lanes, 
provide options for travelers to pay a toll to avoid the 
infamous congestion of the region. Carpools and transit 
vehicles may access the lanes at no charge.
    Both projects utilize the TIFIA program, as well as Private 
Activity Bonds. The innovative financing approach enabled the 
Commonwealth of Virginia to leverage private capital to 
translate $492 million in public investment into $3 billion 
worth of transportation improvements. When factoring in 
construction costs as well as operations and maintenance, which 
Transurban is responsible for, the Commonwealth's direct return 
on its investment is 29 times for the 495 Express Lanes and 110 
times for the 95 Express Lanes project.
    The projects, which were both delivered on time, on budget, 
and with industry leading safety records, also created more 
than 28,000 jobs during construction and generated $6.3 billion 
in economic activity.
    Now in operation, the Express Lanes serve nearly 100,000 
carpoolers and 940 bus trips every day. We save commuters 
225,000 hours of delay a month, which is why it is no surprise 
that recent surveys show that more than 90 percent of frequent 
toll paying customers give the lanes rave reviews.
    The success of Virginia's Express Lanes network would not 
have been possible without the TIFIA program. Thanks to the 
program's flexible terms and attractive interest rates, TIFIA 
enables major projects to be delivered that might not otherwise 
be possible.
    As both a long time TIFIA advocate and borrower, Transurban 
believes that administrative and policy changes are necessary 
to ensure the program can continue to deliver on its policy 
mission and realize its full potential in helping to meet our 
nation's transportation needs.
    TIFIA can build on the success that it has had under the 
leadership of this Committee and produce even greater 
transportation outcomes by promoting consistency in its loan 
terms and conditions; strategically managing risks across its 
portfolio to enable it to support more projects, while also 
protecting taxpayers; and providing greater certainty and speed 
in the evaluation and approval process.
    Projects benefit when borrowers can depend on consistency 
in major terms over time, and can have confidence in an 
underlying risk framework within which terms are defined and 
loan decisions made. This consistency is critical to the 
project planning project and the sponsors' ability to work with 
our government partners to develop transportation projects that 
meet policy needs and can ultimately be financed and delivered.
    When developing major projects, certainty and process in 
timing is also critical, particularly when private investors 
are involved. Transurban recently made the difficult decision 
not to pursue TIFIA to support the 395 Express Lanes project. 
Looking at all aspects of the project, we decided that the 
potential costs associated with the uncertainty around the 
terms TIFIA would require for the 395 loan, as well as the 
timing and process for approval, outweighed the benefits that a 
TIFIA loan could provide.
    Fortunately, we worked with Virginia to find another 
solution that enabled us to move forward with the project, 
which breaks ground in a couple of weeks. But that solution may 
not--in fact, will not be available for other projects. 
Policies that drive transparency and certainty in process and 
terms will ensure that TIFIA can continue to support 
transformational projects like the Express Lanes.
    Beyond TIFIA reform, the Federal Government can take 
additional steps to help increase the pipeline of 
transportation projects and attract more private investment. 
Private Activity Bonds have been a cornerstone of the P3 
industry in the U.S., supporting 16 of the 20 privately 
financed major projects that have closed over the last decade.
    It is critical that Congress increase PABs authorization to 
support growing demand for the program and expand the program 
to accommodate new, more innovative and diverse projects, 
including brownfield projects.
    The U.S. could also benefit from replicating certain 
programs from around the world that have proven to attract 
private investment and help States increase the total funding 
available for infrastructure, including Australia's Asset 
Recycling Model. If merited in the U.S., this kind of Federal 
incentive program could unlock billions in proceeds to support 
new projects. In fact, Transurban estimates the top 10 existing 
U.S. public toll roads alone have the potential to unlock as 
much as $150 billion for new transportation projects.
    These kinds of programs, combined with a long-term 
sustainable public transportation funding, will enable the U.S. 
to put the best of government and the private sector to work to 
help rebuild our infrastructure, create jobs, and get the 
economy moving.
    Mr. Chairman, Ranking Member Carper, and Committee members, 
thank you again for inviting me to be part of this dialogue 
today.
    [The prepared statement of Ms. Aument follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Barrasso. Well, thank you very much for sharing 
your testimony.
    Mr. Coes.

 STATEMENT OF CHRISTOPHER COES, VICE PRESIDENT FOR REAL ESTATE 
    POLICY AND EXTERNAL AFFAIRS, SMART GROWTH AMERICA, AND 
    DIRECTOR, LOCUS: RESPONSIBLE REAL ESTATE DEVELOPERS AND 
                   INVESTORS, WASHINGTON, DC

    Mr. Coes. Good morning, Chairman Barrasso, Ranking Member 
Carper, and members of this Committee. Thank you for the 
opportunity to testify today on the importance of TIFIA and 
financing transit, transit oriented development, and local 
infrastructure projects.
    I am Christopher Coes, Vice President at Smart Growth 
America, leading the LOCUS and TOD Finance and Advisor 
programs, representing billions of dollars in real estate 
assets ready to invest in America's crumbling infrastructure, 
while revitalizing its neighborhoods.
    There is a pent-up demand for walkable communities in 
urban, suburban, and rural markets. According to a recent Smart 
Growth America report, in the country's 30 largest metro areas, 
walkable neighborhoods has a 74 percent price premium over non-
walkable neighborhoods. Despite the obvious economic physical 
benefits, there are many barriers to meeting this demand, 
including financing the up-front costs of public infrastructure 
and development, particularly near transit stations and 
suburban town centers, and along rural Main Streets. If left 
unaddressed, this pent-up demand will drive prices higher, 
exacerbating the current housing shortage and creating more 
displacement.
    Smart Growth America and LOCUS worked very closely with 
this Committee to ensure the FAST Act made significant 
improvements to the TIFIA program by expanding the project 
eligibility to include TOD and local infrastructure projects, 
as well as lowering the overall project threshold from $50 
million to $10 million. These changes ensure that TIFIA can be 
used to facilitate greater private investment in both 
infrastructure and economic development.
    Since the passage of the FAST Act, we have worked very 
closely with USDOT toward the implementation of these reforms. 
I welcome the opportunity today to share with you my 
perspective and some recommendations to help TIFIA meet its 
goals and bring in more private investment to the problem of 
public infrastructure.
    Our first observation is that current prospective 
applicants are still unclear about TIFIA's project eligibility 
and its transportation and planning requirements. For example, 
there is an uncertainty on whether this current USDOT will 
accept statute allowing TIFIA to finance commercial development 
typically used to pay for public infrastructure. Without clear 
guidance or clear DOT policy guidance, the Bureau staff is very 
reluctant to move projects forward. This type of uncertainty is 
deadly to public-private partnerships.
    Our second observation concerns the enormous transaction 
costs associated with applying. The TIFIA, by statute, requires 
projects to secure an investment-grade rating to demonstrate 
credit worthiness. This makes projects under $75 million 
absolutely unworkable. The cost of obtaining just one letter 
from a credit rating agency can range from $300,000 to 
$400,000, and it must be paid regardless if the loan is 
actually approved. This does not include the additional legal 
and financial consulting it takes to actually process a loan.
    This Committee should allow applicants to demonstrate their 
credit worthiness using more economical and market tested 
methods like providing financial statements, project cash 
flows, or providing collateral.
    The third observation is the need to provide greater 
outreach to small and rural communities. While the present 
Bureau staff provides great support, it is a DC operation that 
lacks a robust outreach capacity for project pipeline 
development, particularly for smaller towns and rural 
communities. Based on a lot of the work we do in these 
communities, we find that many of these communities are unaware 
of TIFIA, do not have the capacity to travel to DC, let alone 
apply for the program. This Committee should provide greater 
capacity to USDOT to do more targeted outreach to small towns 
and rural communities.
    Last, there is a need to expand TIFIA's eligibility. Unlike 
the RRIF program, residential development is not an eligible 
component in the TIFIA program. Mixed use and mixed income TOD 
projects significantly increase transit ridership, allowing 
transit agencies to recover more of their costs from the fare 
box revenue than rely on taxpayer money. We urge the Committee 
to allow residential--specifically affordable and attainable 
housing--to be eligible.
    Further, TIFIA's eligibility should be expanded to include 
some of the latest innovations in surface transportation, 
including broadband, green infrastructure, and supporting local 
revolving infrastructure funds.
    In conclusion, I would like to thank the Committee for its 
support for the TIFIA program. I also appreciate the 
opportunity to share some of our ideas on how to accelerate the 
private investment into public infrastructure while rebuilding 
and building more inclusive and vibrant communities, which I 
believe is a clear win-win.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Coes follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Barrasso. Well, thank you very much for your 
testimony and that of all of the members of the panel today.
    Ms. Mayer, you talked about how the TIFIA funding had 
benefited Riverside County Transportation Commission in terms 
of your ability to plan, to program, to deliver major 
transportation improvements. I think you pointed out that you 
were able to avoid delays and additional expenses all because 
of the way that the system worked.
    You recommended, I think, keeping the rolling application 
process going. I am wondering, are there things that you would 
share in terms of any programmatic hurdles you might have 
experienced in applying, and what we could do better if you had 
an opportunity to change anything about the process for 
applying and for receiving the funding? Are there some changes 
that we ought to be looking at?
    Ms. Mayer. Thank you, Senator. I definitely think that the 
change to a rolling application process was a huge improvement 
in the program. There is also a process in advance of the 
formal application, it is the letter of interest process, and 
it is an important step.
    However, that process does not have schedule certainty, so 
I would make a recommendation that the letter of interest 
process have some schedule certainty to it so that project 
sponsors can anticipate how long that process will take, as 
well as start to identify how much it might cost. So I think 
that that would be an important improvement.
    Senator Barrasso. So when someone put in a letter of 
interest, they would have a pretty good understanding of the 
timing it would take until they would hear back. Should we set 
a specific amount of time? What are your thoughts there?
    Ms. Mayer. I would recommend that you do. In the FAST Act 
there is statutory requirements for reviews on the applications 
themselves, so I would recommend a similar policy or statute 
that would put deadlines and timelines in for the letter of 
interest process as well.
    Senator Barrasso. Thank you.
    Ms. Aument, you have experience working to advance large 
scale transportation projects, Virginia 495 and 95 Express 
Lanes. We are talking about legislation to improve the 
infrastructure, both urban and rural. Do you have any thoughts 
on how we could assist small projects, rural agencies, to make 
better use of the investments and the leveraging opportunities?
    Ms. Aument. Thank you, Senator. You know, first and 
foremost, the large urban projects, like the ones that I have 
described, do go a long way into help supporting rural 
communities as well, and how they do that is, if you look at a 
project like 95, where Virginia was able to get 110 times their 
investment, that really helps their public dollars go much 
further and frees up resources that then they can direct to 
communities that may not have multi-billion dollar Express Lane 
project potential. So that is the first important role that 
these projects can play, and TIFIA has certainly enabled that.
    Our advice to rural communities and rural States across the 
country is to, one, engage the private sector in helping to 
look at the assets that you may have and find more creative 
ways to make them viable for private investment. One thing that 
we have seen and is happening successfully in States like 
Pennsylvania with their bridges program, Kentucky with their 
broadband program, is while an individual project, in 
Pennsylvania, for instance, a bridge project, might not be 
viable as a candidate for private investment, by bundling a 
series of smaller projects, it can develop a system or a 
network that may be a bit more suitable candidate to this kind 
of private investment.
    Senator Barrasso. Because, as you mentioned, 110 to 1 of 
the ratio. We are informed that for every Federal dollar 
through the TIFIA program, it leverages, on average, about 40 
to 1. So you had an incredible response there and success.
    Talk a little bit more about how the ratio depends on 
project size and what a rural transportation agency undertaking 
a smaller scale might expect. You talk about bundling projects 
together. I don't know if you have additional thoughts on that.
    Ms. Aument. Definitely. I think what you are going to see 
is, first and foremost, the opportunity to leverage a dollar 
into two dollars. With the critical transportation needs that 
we have in this country, we will certainly want to look at 
policies that provide as many opportunities as possible to take 
those dollars as far as they will go. That is really going to 
range on the size of the project. It is going to range on the 
level of private participation on the project, the risk profile 
of the project, and again, will range across the board.
    If you look at 495, for instance, for every TIFIA dollar we 
delivered $20 of private capital and then $40 of transportation 
infrastructure. And I think, again, you will see that range 
across the country and across different kinds of projects with 
different risk profiles and sizes.
    Senator Barrasso. Thank you very much.
    Senator Whitehouse.
    Senator Whitehouse. Thank you very much, Chairman. I want 
to thank you for holding the hearing, and I want to thank the 
witnesses for coming in.
    I would like to mention a few things. First is that I think 
on our side we are very eager to work with the Administration 
on an infrastructure bill. The Committee held a hearing not too 
long ago with Secretary Chao, who said that she would have the 
outline of an infrastructure bill to us shortly, and we eagerly 
await that outline so that we can begin to work. I do think 
that there is a role for TIFIA and its water cousin, WIFIA, in 
such a bill, but I think we also have to be aware that these 
programs are not a sufficient solution, although they are 
necessary.
    Rhode Island has actually seen very little use of TIFIA, 
and none of WIFIA, partly because the organizations that would 
take these projects on very often have debt capacity that is 
available to them; they have different ways that they can 
borrow money. They don't want to borrow more money. What they 
are looking for is more support. And if they are borrowed out, 
then it takes WIFIA and TIFIA a little bit off the table or 
reduces the viability.
    In a small State, smaller projects can also be burdened by 
the enormous overhead of getting through the WIFIA and TIFIA 
process. So if you are building something enormous, like the 
Express Lanes through Virginia that millions of people are 
going to drive down, then that is one thing. So I think we are 
going to be looking at the WIFIA and TIFIA programs, if they 
reappear in this bill, and ways to try to make them more 
accessible to smaller States and to make them more competitive 
with other forms of borrowing.
    The other thing that I want to mention, since today appears 
to be the day that the massive ice shelf has broken off the 
Antarctic, the way the physics of that works is that when the 
ice shelf breaks away, it is like a dam that has been holding 
back the land-borne ice, which then accelerates its flow.
    I know ice doesn't go very fast when it flows, but if you 
look at the sped up film of glaciers, you can see they really 
look like slow motion rivers running into the sea. So we are 
going to see, as this dam of ice shelf breaks off, heightened 
travel of land-borne ice and snow into the sea, and that is 
going to continue to raise sea levels, and all of that 
continues to put pressure on coastal States like Rhode Island.
    So I hope very much that, as we look at WIFIAs and TIFIAs, 
we can at least be thinking about the prospect of a coastal 
IFIA, because the power of the ocean against the land is an 
astonishing thing, and the damage that it can do when it comes 
ashore, powered up by storms, lifted by sea level rise, is 
really significant. It requires planning in advance to be able 
to do the protective measures that are necessary, whether they 
are hardening of infrastructure or whether they are protecting 
dunes and marshes and other ameliorating natural infrastructure 
that can protect the upland, or whether it is being able to 
respond when bad things happen and you have to do things that I 
have had to do, like walk down the beach in Rhode Island and 
see people's houses in the water and see a legacy of many 
generations that has gone to that home for seaside recreation 
lost irrecoverably to the seas.
    So whether it is roads or other types of infrastructure, 
very often sewage facilities are downstream so they can take 
advantage of gravity. If you are a coastal State, that means 
that they tend to be located near the water level, and that 
tends to be near the coast, and that puts them in harm's way, 
and that means that they are infrastructure that needs 
attention.
    And we are actually looking, Mr. Chairman, at things like 
having to figure out ways to relocate emergency vehicles, 
because in a bad storm the roads that serve neighborhoods can 
be blocked off by high water, and as we, I think very 
unfortunately, saw in New Jersey or New York, if you can't get 
the fire trucks through the water to the neighborhood and a 
fire goes off, then it just goes catastrophic in a hurry.
    So we are having to look at our emergency infrastructure in 
Rhode Island to make sure that, at 6 or 7 feet of sea level 
rise or in 100-year storm conditions, we haven't walled our 
citizens off from the emergency services that they pay for.
    So it is a really serious issue for Rhode Island and I 
think other coastal States to address the problem of the new 
pressures on our coasts of storms and seas, and I look forward 
to working with all of my colleagues and with the organizations 
that are represented here to try to make sure we do a good job 
of that.
    And I thank the Chairman for holding this important 
hearing.
    Senator Barrasso. Thank you, Senator Whitehouse.
    Senator Boozman.
    Senator Boozman. Thank you, Mr. Chairman, and thank you all 
for being here. This has been a great hearing.
    Ms. Mayer, there is lots of talk around Washington about 
reducing the amount of time it takes to obtain permits and get 
projects built. Can you talk about some recommendations that 
you have for reducing permitting timelines without sacrificing 
environmental protections, public transparency, or other public 
interest?
    Ms. Mayer. Certainly.
    Senator Boozman. I think a great example of that would have 
been the bridge that was rebuilt in Minneapolis, when it 
collapsed, which was done in a year, and that project probably 
would have taken 20 years.
    Ms. Mayer. Correct. And the challenge is trying to bring 
that sense of urgency to projects that are delivered on a non-
emergency basis.
    I am very proud that Riverside County is home to two 
habitat conservation plans, and we believe that the use of 
habitat conservation plans to have advanced mitigation for 
transportation projects really does not only allow us to 
protect the environment, but it also allows us to get our 
projects delivered.
    The Western Riverside County Habitat Conservation Plan was 
implemented well over a decade ago. The State and Federal 
resource agencies are signatories to that plan as well. We have 
put over 400,000 acres into conservation, protecting 146 
species, and what it has done for transportation projects is 
make sure that our transportation projects can get through a 
process in a rapid timeline.
    We have shortened the environmental process by, on average, 
2 years by using the habitat conservation plan. So we have a 
decade's worth of proof that it is possible to build projects 
and protect the environment. It is possible to have 
streamlining at the same time we have conservation that really 
is meaningful.
    Senator Boozman. Now, that is a good story. What has that 
done to your cost in the sense of getting these projects done 
in an expeditious way?
    Ms. Mayer. It has really reduced the cost not only of the 
delay in a project environmental process, but also in terms of 
having mitigation on a project by project basis. That can be 
very costly, and it sometimes is not very effective. So by 
having an up front contribution to the habitat conservation 
plan, which our sales tax measure did, by having that up front 
contribution, we get the investment in the land up front, and 
we believe that it has saved us millions of dollars both in 
real costs, as well as time.
    Senator Boozman. Very good.
    Mr. Coes, you mentioned that broadband should be eligible 
under TIFIA. How do you envision TIFIA being able to help 
communities complete those important broadband infrastructure 
projects which have become a necessity these days?
    Mr. Coes. Well, particularly in rural communities, 
broadband is an essential tool to be connected to the broader 
economy, and what we are finding with a lot of the real estate 
developers we are working with is that it is a vital asset to 
redevelopment, and we believe by adding broadband as an 
eligibility, you now incentivize communities, along with their 
private sector actors, to bundle projects together to actually 
bring those types of services to those communities.
    Senator Boozman. Good. And you mentioned in your testimony 
that we needed a more targeted outreach for small towns because 
they simply don't understand the benefit of TIFIA. What would 
be your recommendation? How can we see the TIFIA program more 
utilized?
    Mr. Coes. Well, I, for one, am very supportive of 
interagency collaboration. Today, USDA, Department of 
Agriculture, actually has an enormous field staff on the 
ground, and I believe if USDOT works collaboratively with USDA, 
we can be able to provide those resources directly to those 
communities.
    Senator Boozman. Very good.
    Ms. Mayer, do you agree that while programs such as TIFIA 
are important, there is need for direct Federal funding for 
transportation programs? This is especially important for 
States like mine, where TIFIA may not be a viable option, given 
a very rural nature in much of our State.
    Ms. Mayer. Absolutely. TIFIA is a wonderful tool, and we 
will use it on the projects where it makes sense to do so, but 
not only is our agency dependent on, and do we rely on those 
direct Federal grants, but so do all of our cities, as well as 
the counties. So, absolutely, Federal grants are very, very 
important.
    Senator Boozman. Thank you all.
    Thank you, Mr. Chairman.
    Senator Barrasso. Thank you.
    Senator Cardin.
    Senator Cardin. Thank you, Mr. Chairman. I thank our 
witnesses for their testimony.
    The TIFIA program is very important in all States, and 
Maryland has utilized it for some very important programs. We 
are now using it in our Purple Line for transit, which is a 
major commitment of funds, and the TIFIA is one part of that 
equation. Without that, it would be difficult to see the 
project move in the manner that we hope that it will, with 16 
miles of track and 21 new stations, which is critically 
important to the Washington community.
    So I recognize its importance, and I understand that there 
are certain standards that have to be met for a project to be 
eligible. But I want to get your thoughts. Senator Cochran and 
I have worked long and hard to preserve transportation 
alternative programs so that you can--as you do transit 
infrastructure, you are able to enhance local communities, that 
they can have pedestrian and bike paths, that they can have the 
types of enhancements that are important for a community to 
continue to grow and thrive.
    I know that there are certain restrictions in the TIFIA 
program which are challenging for these types of projects 
because of the size requirements, et cetera. Do you have any 
suggestions on how we could make the TIFIA program more 
appropriate for these types of projects, particularly that are 
desired by our local governments? They are the ones, in my 
view, that have the closest understanding of the needs in their 
community. How can they better utilize this? Is there something 
we can do to make it easier?
    Mr. Coes. Senator Cardin, thank you for that question. 
First, thank you for your leadership on this issue. I know we 
worked very closely with your staff on the Complete Streets 
policy that has been really critical to advancing and providing 
pedestrian safety across the country.
    The simple answer to that is in the FAST Act we were able, 
working with Rails to Trails, lower the threshold for projects 
to $10 million for those types of projects. However, one of the 
challenges we are still seeing is the fact that the TIFIA 
program only provides gap financing. We believe for these types 
of projects, and rural projects as well, if we allow TIFIA to 
take a higher level of the percentage of the total project 
cost, it would be more advantageous for these types of 
projects.
    In addition, I cannot emphasize enough the level of 
transactional costs that comes with applying for TIFIA. As I 
mentioned before in my testimony, just getting an investment 
grade rating takes about $400,000. And for a lot of local 
communities that are budget strapped, that is an enormous 
hurdle. And I believe that one of the opportunities that we 
have is to provide more resources so local communities can 
actually reduce that cost barrier.
    Senator Cardin. Yes, ma'am, did you want to respond?
    Ms. Aument. I was just going to add, Senator, if I may, 
that the policies of this Committee have expanded the 
eligibility of TIFIA into new projects, including community 
projects. What we found is that you now have a potential 
backlog of projects, because it takes about the same amount of 
resources to do underwriting for a $10 million project as it 
does for a $3 billion project.
    So looking at not just expanding the eligibility, but 
ensuring the TIFIA program has the administrative funding it 
needs to manage that, and also getting those projects, both 
small and large, through the program more efficiently. That 
means transparency in process; it means really an underwriting 
risk framework to guide decisionmaking, and prioritizing 
projects where there is a particular need for time sensitivity, 
like when private capital is involved. Those kinds of reforms, 
along with expanding eligibility for different projects, will 
make sure that all projects, large and small, can move through 
the process quickly.
    Senator Cardin. So here is how we need you to help us. 
Let's say I run a small business, an entrepreneurship 
committee, and we look at ways in which we can make costs less 
for small business, recognizing that their transactional costs 
can mean the difference between business and going out of 
business. It seems like we have a similar problem here because 
those underwriting costs are just not manageable for a 
relatively smaller project, and the delay issues means that it 
is fatal, rather than just delaying the project.
    So, can you help us with how we could address that problem, 
perhaps for certain defined projects, the smaller projects, so 
that we don't have that type of cost and delay?
    Mr. Coes. Absolutely.
    Senator Cardin. Would you get us that information?
    Mr. Coes. Absolutely.
    Senator Cardin. I would welcome that, because I think all 
of us want particularly the reduced transaction costs for our 
local governments that are working on much tighter budgets and 
much tighter timelines than perhaps a major expansion of a 
transit system or a major transportation infrastructure 
project.
    Mr. Coes. Absolutely.
    Senator Cardin. Thank you, Mr. Chairman.
    Senator Inhofe [presiding]. On behalf of the Chairman, we 
recognize Senator Wicker.
    Senator Wicker. Thank you. I do appreciate that.
    [Remarks made off microphone] tax-exempt facility bonds. 
These bonds provide a number of benefits and opportunities for 
private-public partnerships, but road and bridge projects are 
currently excluded. Is that correct?
    Ms. Mayer. Senator, I didn't hear the first part of your 
statement.
    Senator Wicker. With regard to tax-exempt facility bonds.
    Ms. Mayer. I am not familiar with the use restrictions on 
tax facility bonds. I would have to check that and get back to 
you, and we can certainly do that after the hearing. I 
apologize.
    Senator Wicker. OK, is anyone on the panel familiar with 
whether road and bridge projects are currently eligible for 
tax-exempt facility bonds?
    Ms. Aument. Senator, I can actually speak not to that 
specific bond, but to private activity bonds, which is a form 
of tax-exempt bonds that have been used very successfully in 
public-private partnerships. There is a limitation on private 
activity bonds right now which we believe is handicapping the 
market in terms of opening up opportunities. Currently, they 
are only allowed for greenfield or new projects. Expanding 
private activity bonds to include more innovative projects, a 
larger number of projects, and brownfield projects we believe 
will go a long way to help build the pipeline and provide 
opportunities for private investment here in the U.S.
    Senator Wicker. OK. And who can speak to me about revenue 
streams with regard to the FAST Act, and particularly my 
interest in rail service between New Orleans and Orlando?
    Mr. Coes, let me ask you, then. The FAST Act mandated that 
the FRA convene a working group to evaluate the restoration of 
intercity passenger rail between New Orleans and Orlando, a 
corridor that was significantly impacted by Hurricane Katrina. 
Transportation options are essential to economic development 
for rural areas.
    However, startup projects such as these will likely take a 
good deal of time to build up large enough user bases to 
generate the revenue stream. So what funding mechanisms can 
medium sized municipalities and medium sized local communities 
use to fund projects like passenger rail service?
    Mr. Coes. Well, thank you, Senator, for that question, and 
Senator, again, thank you for your support for the rail. As you 
know, Transportation for America, with John Robert Smith, is a 
huge advocate, has been working on this issue for a long time.
    Senator Wicker. Old friend of mine.
    Mr. Coes. Old friend of all of ours, sir.
    With that being said, one of the recommendations I outline 
in my written testimony is the fact that we are increasingly 
finding that private developers, who I work with, are willing 
to bring private capital to the table to allow these 
infrastructures to move forward. However, right now, currently, 
RRIF program provides residential and commercial development 
opportunities to do that.
    However, in the TIFIA program there is not that ability to 
allow private developers to bring their residential and 
commercial revenues to the table to help finance those 
projects. So I think one of the immediate recommendations would 
be to make the TIFIA and RIFIA program both copasetic to allow 
more real estate revenue to be allowed to help provide more 
funding for these infrastructure projects.
    Senator Wicker. And what is it going to take to do that?
    Mr. Coes. Statutory change.
    Senator Wicker. I see. Well, I would certainly like to work 
with other members and with the panelists in that regard. Thank 
you very much.
    Mr. Chairman, thank you for your indulgence.
    Senator Barrasso [presiding]. Thank you, Senator Wicker.
    Senator Carper.
    Senator Carper. I am happy to yield to Senator Duckworth. 
Thank you.
    Senator Duckworth. Thank you, Mr. Chairman.
    Thank you, Senator Carper.
    I want to thank the Chair and Ranking Member for convening 
today's hearing, and I want to thank our witnesses for 
participating in this very important conversation.
    Mr. Chairman, our nation's infrastructure is crumbling. I 
appreciate this Committee's engagement to address this 
challenge, but a 21st century transportation system is simply 
not going to materialize without the full and coordinated 
engagement of Congress, the White House, and our States.
    We are 7 months into the Trump Administration, and we still 
haven't seen any meaningful details of the President's 
infrastructure plan. In fact, the President's budget proposal 
is a net negative for infrastructure investment, cutting nearly 
$150 billion from critical programs over the next decade.
    Mr. Chairman, I would like unanimous consent to insert the 
President's budget document into record.
    Senator Barrasso. Without objection.
    Senator Duckworth. Thank you.
    [The referenced information follows:]
    [GRAPHIC] [TIFF OMITTED] T6726.043
    
    Senator Duckworth. Instead of creating jobs that boost 
local, regional, and national economies by rebuilding our 
roads, bridges, and water systems, President Trump and 
congressional Republicans made the conscious decision to 
prioritize eliminating health care for 20 million Americans and 
providing tax cuts for the wealthy.
    Mr. Chairman, the opportunity costs of inaction are simply 
skyrocketing, born by a distracted White House and an 
uncoordinated Congress.
    Tomorrow, Senator Carper and I, along with Senators 
Stabenow, Booker, and others, are holding a roundtable 
discussion to highlight the nexus between water quality and 
public health and the challenges many communities face 
regarding drinking water and wastewater investments. Water 
infrastructure by itself requires an estimated $650 billion in 
investments over the next 20 years, and I invite all of my 
colleagues to come and participate.
    We are simply just scratching the surface of addressing our 
infrastructure needs. In the process, men and women across 
America are missing out on jobs that would be created through 
investments.
    Earlier this year, Senate Democrats put forth a common 
sense blueprint for addressing these challenges, and it is my 
hope that today's hearing, and others like it, are bearing the 
case for robust investments that prioritize safety, public 
health, and jobs creation.
    Ms. Mayer, your written testimony suggests that financing 
tools like TIFIA and public-private partnerships are critically 
important, but are no substitute for traditional grant funding. 
I agree with you. Financing mechanisms are important, but you 
still need that core investment to leverage other dollars.
    The President's fiscal year 2018 budget proposes cuts to 
infrastructure programs across the board to about $150 billion 
over 10 years. In your opinion, what would be the consequences 
to communities just like yours should the President's proposed 
budget cuts ever be enacted? Would it help or hurt?
    Ms. Mayer. The loss of Federal grant funding would be very 
detrimental to our ability at the regional level, as well as at 
the local level, to get our projects built. There simply isn't 
sufficient funding to be able to build the projects that we 
need. We are fortunate we have a local sales tax measure that 
brings in revenues that we can use to build our projects, but 
it is simply not enough; we need the Federal grant program.
    Senator Duckworth. And do you have projects that have low 
or simply no returns on investment that would be outside of any 
type of a public-private partnership? You can't get people to 
come in and invest in filling potholes, right?
    Ms. Mayer. Most of our projects are outside of the type of 
eligible projects that we would consider for a TIFIA process, 
whether those be local road projects, widening projects, 
commuter rail. We were just talking about rail projects as 
well. Most of those are outside of those types of programs, so 
we would absolutely see a need to make sure that we had those 
Federal grant programs going. And it is particularly critical 
for us in our rural areas. Riverside County has both urban and 
rural areas. Those rural jurisdictions definitely count on that 
funding just for the most essential services and projects.
    Senator Duckworth. Thank you.
    Mr. Coes, in your opinion, does the Trump budget help or 
hurt efforts to expand transit oriented development?
    Mr. Coes. Currently, the proposed budget would be a setback 
for transit oriented development partly due to the fact that a 
lot of the funds that are coming through HUD and DOT actually 
provide some of the necessary subsidies to allow communities to 
build those local infrastructures. In addition to that, the 
current Administration has the opportunity to actually 
implement the current changes in the FAST Act that could also 
help in that area as well.
    Senator Duckworth. Thank you. In your written testimony, 
Mr. Coes, you highlight some of the challenges that rural 
communities face in addressing their infrastructure needs 
through programs like TIFIA. People think of Illinois and they 
think of Chicago, but they don't realize how large a State I 
represent and how it is mostly rural, with Chicago in one end 
of it.
    Of the five TIFIA leveraged projects in Illinois, all of 
them are in the Chicagoland area. With the Administration's 
preference for incentivizing more private investments in 
infrastructure projects, rural America is likely to lose out.
    What can we do, Mr. Coes, to ensure more attention is paid 
to rural communities in the context of financing opportunities 
like TIFIA?
    Mr. Coes. There are two recommendations I would put on the 
table. First, USDOT should collaborate directly with the 
Department of Agriculture, who have field staff on the ground 
in those communities to better leverage the program. And the 
second would be to allow the TIFIA program to actually be open 
to more local infrastructure revolving funds like CFIs, who are 
actually on the ground in these communities who can be able to 
distribute those funds much more readily and easier.
    Senator Duckworth. Thank you.
    I do want to note for the record President Trump's budget 
actually eviscerates the U.S. Department of Agriculture's Rural 
Development Office, including zeroing out infrastructure and 
small business funding and eliminating the Undersecretary for 
Rural Development. I don't see how we can move forward with 
those cuts.
    Thank you so much, and I yield back, Mr. Chairman.
    Senator Barrasso. Thank you very much.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    I noticed, when you were giving your opening statement, Ms. 
Mayer, that you listed many of the things that we have done, 
going back even before MAP-21, to try to get more projects 
done. I thought, and I commented to the Chairman, I said the 
one thing she left out in her list was streamlining. Then later 
you corrected that when you responded to a question from 
Senator Boozman.
    But I think it is important that we get into that, and I 
would like to hear from each one of you, because this became a 
very contentious thing. When I chaired this Committee and we 
were able to do two or three of these, Senator Boxer and I, we 
had a disagreement, and finally we worked it out so that that 
agreement did work. In fact, we had the program, the TAP 
Program, that is a good example, where 2 percent would be going 
to ART, and then that was changed, so that was expanded a 
little bit when we did our FAST Act.
    So I would like to have the three of you just make any 
comments you want to make about the significance of 
streamlining in these projects.
    Ms. Mayer. The importance of streamlining can't be 
overstated. It has been a basic principle for my board's 
platform for well over a decade in that we have to continuously 
find ways to do things faster and more effectively.
    From a streamlining standpoint, there are a couple of 
programs that I would point to. Federal Highway Administration 
administered the Every Day Counts program. They also had an 
enhanced environmental review program. Our State Route 91 
project was in the environmental program, and it really made a 
difference. What it did was create a high level of attention at 
the Federal agency level to ensure that discussions were taking 
place, reviews were happening on a timely basis, and if we, as 
a project sponsor, ran into trouble, we had a resource to go to 
to help facilitate the problem. I think the Build America 
Bureau has the opportunity to really help us with additional 
streamlining.
    Senator Inhofe. Do the other two agree essentially with her 
comments on that?
    Ms. Aument. Of course.
    Mr. Coes. [Nodded affirmatively.]
    Senator Inhofe. One of the things I can remember, and I go 
all the way back to prior to coming to the Senate, I was in the 
House committee, and people have forgotten one of the big 
problems we had with the Highway Trust Fund back then is we had 
too much surplus. Remember those days? You were probably too 
young to remember that, but you can remember reading about it.
    So we acknowledge we know what has happened to that, and we 
know the problems that now exist and how important it is. The 
most popular project the Government does is transportation.
    So, having said that, in one of our Committee hearings that 
we had, and it has already been covered a little bit by the 
Chairman, we had five witnesses, and these witnesses were from 
the contracting community. And talking about the 3P, they all 
agreed, four out of five agreed it was very important and a 
very important part of the project that comes up. But they all 
said, except it doesn't work as well in rural areas.
    Now, we have talked about this a little bit. It happens 
that everyone on this side of the dais is from a rural State. 
So I would like to have comments from any of you who have not 
weighed in on the problem in using 3Ps in the rural area, and 
maybe a possible solution to weigh in now.
    Ms. Aument. Senator, that is a great question as we look to 
how can we make dollars go further in all kinds of communities. 
Again, I want to reinforce that don't overlook large urban 
projects and P3s and their role in freeing up resources to help 
meet needs in rural communities.
    I would also underscore that in States across the country, 
as rural communities look at networks and systems, instead of 
just individual projects. As a private investor, an individual 
project may not make sense. An individual big project might not 
be financially viable. But by putting across a network, either 
a network across the community, across the State, it is 
something that could work for private investment.
    So I would encourage those mayors and Governors and their 
teams to bring private investors in and really engage to get 
feedback on what networks or systems within their communities 
might indeed stack up as a financially viable P3 project.
    Senator Inhofe. Yes.
    Mr. Coes. The only thing I would add to your comments is 
the fact that oftentimes smaller projects do not generate the 
revenue stream in order to support it. However, our experience 
is that if you actually tie those infrastructure projects to 
economic development, you are able to generate new revenues, 
maybe from the retail, maybe from commercial or residential, 
that can underwrite those infrastructure projects. And we find 
that a lot in a lot of rural towns and areas. So my 
recommendation would be to think about more innovative ways to 
pay for the infrastructure projects using real estate and other 
economic development means.
    Senator Inhofe. Ms. Aument, when I saw your resume, your 
background and the fact that you work with a lot of other 
countries, my first thought was we keep trying to do a lot of 
the same things over again. Is there anything you can think of 
that has been used in some of these other countries that maybe 
we haven't properly explored?
    Ms. Aument. Absolutely. You know, the U.S. Federal 
Government, and very much some of the policies advocated by 
this Committee, has played an increasing role, and very 
effective role, in the last 10 years in providing education to 
States and localities across the country in helping to provide 
resources that will enable these professionals to look at 
public-private partnerships, and we have seen real progress in 
that area. And State and cities across the country are taking 
that information and those best practices and putting them to 
work to move transportation projects forward.
    Where I think the natural next step would be for the 
Federal Government to really enhance meaningful opportunities 
for private investment is to move from educator to 
incentivizing States and localities to look at these kinds of 
projects. And I think that is an important shift.
    Australia has a concept that has worked very successfully 
in that country called asset recycling, where the Federal 
Government provided a 15 percent bonus, for lack of a better 
word, for States who, when they look around and they looked at 
their infrastructure, and they said what assets, be it 
electrical grid, ports, toll roads, what assets would have more 
value in the hands of the private sector. And the Federal 
Government would provide a 15 percent bonus or incentive for 
States to privatize those assets. And those funds, both through 
the privatization and through the bonus, were then redirected 
to help support greenfield projects and great projects like the 
Sydney Metro.
    So that would be an incentive program I would encourage you 
to look at, or if not word for word that policy, at least that 
theme of moving from educator and facilitator to incentivizing.
    Senator Inhofe. OK, my time has more than expired, but this 
is a very common thing to do at these meetings. If you would 
supply us with, or me, for the record, other ideas that you 
have. I have a feeling you could go on for quite a while on 
this subject. Would you do that for me?
    Ms. Aument. Of course.
    Senator Inhofe. Thank you.
    Thank you, Mr. Chairman.
    Senator Barrasso. Thank you, Senator Inhofe.
    Senator Carper.
    Senator Carper. Thanks, Mr. Chairman. This has been a good 
hearing, and I was mentioning, in a sidebar conversation with 
the Chairman, you are exceptionally good witnesses; very 
knowledgeable and very clear and concise in your responses. It 
doesn't always happen. Sometimes we are not very clear and 
concise in our questions either.
    I know we keep coming back to the idea that TIFIA works in 
a lot of places; it doesn't always work in rural areas. A 
couple of you commented on that.
    Ms. Mayer, do you have anything you want to add in terms of 
I think in your area of California you have--I used to live in 
California when I was in the Navy. But you have nine 
metropolitan areas; you have rural areas as well. Just mention 
one or two maybe additional features to the TIFIA program that 
might make it more attractive as a financing tool in rural 
areas. Anything come to mind?
    Ms. Mayer. What comes to mind, although we haven't had the 
opportunity to use it yet, there is a provision that allows for 
master agreements in the TIFIA program, which is a master 
agreement with a sponsoring agency that would allow a bundle of 
projects, as was mentioned before, to come forward.
    In the rural area we see this as a real potential 
opportunity to explore how we could use a master agreement 
process to bring forward a suite of projects, as opposed to 
just a single project. The challenge there is finding the 
revenue stream with which to pay back the loan. But we see 
exploration of the master agreement and the bundling concept 
perhaps as the best way of trying to approach the rural 
question that you pose.
    Senator Carper. Thank you. Without getting into the 
details, I would ask the other two witnesses to react to that, 
to what Ms. Mayer said.
    Ms. Aument. About the TIFIA, I am really glad that you 
brought that up, because I mentioned earlier the case study of 
395. Because of the uncertainty in the timing of the process, 
we chose not to use TIFIA. It would have made perfect sense had 
we had that agreement available when we did the 95 Express 
Lanes, to be able to move that forward.
    Senator Carper. Thank you.
    Mr. Coes.
    Mr. Coes. The only thing I would add is, yes, the master 
credit agreement creates a great opportunity. In addition to 
that, I think there should be some encouragement for USDOT to 
take more of a portfolio approach in terms of the risk 
management of rural projects, or particularly smaller projects. 
I think that, in and of itself, would create more incentive for 
local communities to take advantage.
    Senator Carper. Did the three of you rehearse this before 
the hearing started? That was pretty good.
    I think it was in 2012 when GAO found that projects which 
received credits through the TIFIA program tend to be large, 
high cost highway projects. More recently, I think last year, 
TIFIA report to Congress showed that about two-thirds of the 
TIFIA program's credit assistance goes to finance highway 
projects only.
    In what ways can we further help multi-modal and intermodal 
projects to leverage TIFIA financing?
    And I would direct that question to you, Mr. Coes.
    Mr. Coes. As I stated in my written testimony, I think what 
we are finding now, particularly working with transit oriented 
development and biped infrastructure through the TIFIA process, 
the transactional cost is a major hurdle.
    The second piece, I think, is one that is more cultural in 
the bureaucracy of DOT. If you are a staffer who, for the past 
15 years, have been working on financing highway projects, you 
get really good at it. I think when you begin to increase the 
eligibility, the staff may have little expertise in 
underwriting those projects. So I believe one of the things 
that we want to think about moving forward is either providing 
USDOT the capacity to gain greater expertise in these new 
projects that may be lacking on the staff or allowing them to 
acquire that outside.
    Senator Carper. Thank you.
    Another question, if I could, for Ms. Mayer. Are you ready 
for another one?
    Ms. Mayer. Yes.
    Senator Carper. All right. In Riverside County, I think you 
have already talked a little bit about SR 91 projects. Contract 
originally I think it included a non-compete clause, is that 
right, to protect the private partners' profits? Those clauses 
prevented, I am told, the public agency from building any new 
lanes, even when congestion increases to the point, I 
understand, of being dangerous. And ultimately I think it was 
the Orange County Transportation Authority had to buy out the 
private partner in order to expand the number of lanes.
    Given this experience, what are the protections that might 
be helpful in safeguarding public interest?
    Ms. Mayer. At the time that the State of California issued 
a concession to the private sector for the Orange County toll 
lanes, it was typical to include a non-compete clause which was 
very prohibitive. My understanding at this point, and perhaps 
my colleague could address this more directly, is that non-
compete clauses are not typically found in those kinds of 
concessions anymore. Certainly, with the public ownership of 
the tolled express lanes, there are no non-compete clauses. We 
have to make sure we understand what happens if we add other 
projects, but those non-compete clauses are no longer typical, 
and it was absolutely damaging to our ability to move people 
through that corridor with that non-compete clause in place.
    Senator Carper. Just very, very briefly, yes or no, do you 
agree with that?
    Ms. Aument. It is atypical to have anything. We certainly 
don't have anything in our network that would prohibit the 
State from moving forward with other transportation projects. 
And I will underscore that they are in the driving seat when 
they have these transactions. They have a number of levers to 
pull, and if those competing facilities are a priority to 
ensure that they are left flexible, that is absolutely in the 
control of the State.
    Senator Carper. OK. Thank you.
    I sometimes say I learn more from my mistakes than the 
things I do right, and maybe this was a good lesson for us to 
learn from a mistake.
    If I could, back to Mr. Coes. You ready for another one, 
Mr. Coes? OK. Bring it on? Bring it on.
    In 2012 MAP-21 began a new era of performance management, 
as you know. I like to say we can't manage what we can't 
measure, and that includes measuring performance to make sure 
that we maintain our existing roads before we start to build 
some new ones.
    Would it be prudent for USDOT's Build America Bureau, which 
administers the TIFIA program, as you know, for them to 
consider performance metrics in the TIFIA program, such as 
having States fix it first, prior to expanding their systems?
    Mr. Coes. Overall, I think, interesting enough, this is an 
issue that our organization cares about very deeply. We do 
believe that we should be investing in our existing 
communities. Once we have done that, we should then think about 
greater capacity.
    In terms of the Bureau, I would say this. Every project is 
different. However, we do believe that the Bureau should take a 
view that projects that are coming through the pipeline should 
have the ability to be sustainable over the long term, and that 
could be done in different ways: one, through the underwriting 
process, in terms of whether or not this project can 
financially support itself over the long term, as well as will 
there be long-term support by the community to invest in this 
project.
    So those two items I think that would be one of the ways we 
can increase public performance measures through the TIFIA 
program particularly through the Bureau.
    Senator Carper. All right, thanks.
    And maybe one for all three, then I am done.
    The President's budget proposed to increase TIFIA's 
contract authorities we know to, I think, about $1 billion per 
year. But just over a year ago, in the FAST Act, Congress 
reduced the program from $1 billion a year to its current 
authorization of $275 million because it was more money, 
apparently, than DOD could process and more than was needed. In 
your opinions, what level of capitalization would make sense 
and be useful?
    Ms. Mayer.
    Ms. Mayer. I think it is important to make sure that there 
is sufficient capital there. There may be times where $1 
billion might be too much, but project delivery is very 
cyclical, and I think predictability for project sponsors is 
important. So having an understanding that there is at least a 
base level authorized would be very, very important, so that we 
know the program will be there when we need it.
    Senator Carper. All right, thanks.
    Ms. Aument.
    Ms. Aument. Senator, TIFIA can only leverage tax dollars to 
deliver more if there are projects for TIFIA to support. So you 
can put all the money that you want into the TIFIA program, but 
if there are not projects, a pipeline of projects in cities and 
States across the country ready to receive that TIFIA and to be 
able to move forward to serve communities, then it won't do any 
good.
    So I think I agree that sufficiently funding TIFIA is very 
important, but also looking, at the same time, at strategies to 
incentivize States to move projects forward, efforts to 
streamline the process to ensure projects can move forward in a 
quick fashion, those are the kinds of efforts that are 
necessary to build that pipeline and unlock a lot of the 
private capital that is waiting to invest. But it is the lack 
of projects that is the real obstacle for us.
    Senator Carper. All right.
    Mr. Coes, just a quick word, please.
    Mr. Coes. I would like to agree with my colleagues. In 
addition to that, I think one of the lessons we have learned in 
other loan programs is that those programs have partnered with 
local banks on the ground who have been able to do transactions 
with loan guarantees to be the aggregator of these projects. So 
I think that is one strategy to think about how to increase the 
volume.
    But I agree with the colleagues that you can increase 
money, but if there are no projects, it doesn't make any 
difference.
    Senator Carper. Good. Thanks.
    Thank you. In the Olympics, Mr. Chairman, sometimes the 
figure skaters or other performers, at the end of their 
performance, the judges hold up a number from 1 to 10, and I 
can't speak for my other colleagues who have left, but I would 
say you got 9s and 10s from Delaware, and my guess is from 
other States, too. Very nicely done.
    The other thing I would say, this is really important 
stuff, and we are struggling to find things to agree on to work 
on together. This is certainly a big one. And the idea of not 
just roads, highways, bridges, but I think a couple of you 
mentioned broadband, deployment of broadband, water sewer 
treatment, and that kind of thing. It all kind of works 
together to create that nurturing environment for job creation 
and job preservation, which we know we need a lot more of.
    So thank you for adding a lot to the conversation. And I 
expect we will be back to you to ask some more questions 
offline. Thank you so much.
    Thanks, Mr. Chairman. This was excellent.
    Senator Barrasso. Well, thank you very much, Senator 
Carper. I agree we have had an outstanding panel. They have 
done a great job in answering our questions.
    As you know, members may submit written questions to you 
over the next couple weeks, so we would ask that you respond 
quickly, if you could. I want to thank each of you for being 
here, for your time, for your testimony, for sharing your 
expertise and your knowledge.
    With that, the hearing is adjourned.
    [Whereupon, at 11:27 a.m. the hearing was adjourned.]
    [Additional material submitted for the record follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
